HHS/OIG, Audit -"Survey of Physical and Sexual Abuse in Alabama Nursing Homes,"(A-04-03-07027)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Survey of Physical and Sexual Abuse in Alabama Nursing Homes," (A-04-03-07027)
June 7, 2004
Complete
Text of Report is available in PDF format (1.3 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if the Alabama
Department of Public Health – Complaint Unit (Survey Agency) properly
investigates, tracks, and monitors physical and sexual abuse in nursing facilities
in a timely manner.  Our review revealed that changes should be made to
improve the methodology currently used to investigate, track, and monitor physical
and sexual abuse complaints as reported by nursing facilities.  We recommend
that the Survey Agency:  (1) investigate complaints within established
timeframes and notify CMS of all abuse complaint backlogs and request assistance
from CMS to help restore the workload to a manageable level, (2) improve policies
and procedures to include detailed instructions for tracking and monitoring
all complaints received, (3) update the registry in accordance with Federal
requirements and place a higher priority on abuse complaints that have already
been substantiated by the nursing facilities, and (4) encourage nursing facilities
and their employees to report abuse allegations in accordance with Federal
and State regulations by citing the nursing facilities with deficiencies.